                    luation


                        ort




              CONTRACTING PRACTICES FOR THE
          INSTALLATION RESTORATION PROGRAM AT
           MASSACHUSETTS MILITARY RESERVATION



Report Number 98- 152                           June 15, 1998




              Office of the Inspector General
                  Department of Defense
Additional Copies

To obtain additional copies of this evaluation report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD Home Page at: WWW .DODIG.OSD.MIL.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-8908
(DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;             or
by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.          The
identity of each writer and caller is fully protected.




Acronyms

AFCEE                  Air Force Center for Environmental Excellence
COR                    Contracting Officer Representative
DO                     Delivery Order
DOE                    Department of Energy
EPA                    Environmental Protection Agency
FAR                    Federal Acquisition Regulation
FFA                    Federal Facility Agreement
HAZWRAP                Hazardous Waste Remedial Actions Program
HSC                    Human Systems Center
IRP                    Installation Restoration Program
MMR                    Massachusetts Military Reservation
SETA                   Systems Engineering and Technical Assistance
UCA                    Undefinitized Contract Action
UOP                    Unilateral Ordering Procedure
                             INSPECTOR    GENERAL
                            DEPARTMENT   OF DEFENSE
                              400 ARMY NAVY DRIVE
                            ARLINGTON. VIRGINIA 22202




                                                                          June 15, 1998




MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
               (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Evaluation on Contracting Practices for the Installation Restoration
         Program at Massachusetts Military Reservation (Report No. 98-152)


        We are providing this report for information and use. We conducted the
evaluation in response to a request from the Assistant Secretary of the Air Force
(Manpower, Reserve Affairs, Installations and Environment). Management comments
on a draft of this report were considered in preparing the final report.

        Comments on the draft of this report conformed to the requirements of DOD
Directive 7650.3. No further response is required; however, there will be separate
followup inquiries from this office.

        We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Mr. William C. Gallagher, at (703) 604-9270
(DSN 664-9270) or Mr. Michael Perkins, at (703) 604-9273 DSN 664-9273. See
Appendix F for the report distribution. The evaluation team members are listed inside
the back cover.




                                        Robert J. Lieberman
                                     Assistant Inspector General
                                             for Auditing
                            Office of the Inspector General, DOD
Report No. 98-152                                                     June 15, 1998
   (Project No. 7CB-5028)

            Contracting Practices for the Installation Restoration
              Program at Massachusetts Military Reservation

                                   Executive Summary

Introduction. This evaluation was initiated in response to a request from the Assistant
Secretary of the Air Force (Manpower, Reserve Affairs, Installations & Environment)
to review the Installation Restoration Program at the Massachusetts Military
Reservation.

Evaluation Objectives. The overall evaluation objective was to evaluate contractual,
technical, and managerial processes associated with cleanup actions at the
Massachusetts Military Reservation. This report discusses our evaluation of the
contractual processes. The technical and managerial processes will be discussed in a
subsequent report. We also reviewed the management control program as it applies to
the award, administration, and oversight of environmental contracts.

Evaluation Results. The Air Force Center for Environmental Excellence did not
effectively manage environmental contracts for the Massachusetts Military Reservation.
Our review showed that the Air Force Center for Environmental Excellence:

       o used undefmitized contract actions related to the Massachusetts Military
Reservation routinely, rather than solely for urgent requirements,

        o used unilateral ordering procedures on time and material contracts, though
this did not comply with the Federal Acquisition Regulation,

       o allowed the contractor to perform work outside the scope of the contract,

       o did not promptly review eight invoices totaling $37.2 million to identify
unallowable or questionable costs.

Additionally, neither The Air Force Center for Environmental Excellence nor the
Environmental Contracting Division, Human Systems Center of the Air Force Materiel
Command had not established an effective management control plan.

As a result, the Government faces greater risk of cost growth and ineffective contractor
performance. See Part I for a discussion of the evaluation results and Appendix A for
additional details on management controls.

Summary of Recommendations. We recommend that the Air Force Materiel
Command periodically review support for the use of undefinitized contract actions at
the Air Force Center for Environmental Excellence to ensure that undefinitized contract
actions are used only for unforeseen urgent requirements, rather than to routinely
expedite obligations. Also, we recommend that the Air Force Materiel Command
rescind the approval for the unilateral ordering procedures for time-and-materials
contracts.

We recommend that the Air Force Center for Environmental Excellence discontinue
routine use of undefinitized contract actions, discontinue the use of unilateral ordering
procedures for time-and-materials contracts; cancel or request reapproval for the
undefinitized $131 million letter contract; require the contracting officer to review
contractor charges within 30 days of receipt; withhold payments for any questioned
charges; and establish an assessable unit for the environmental contracting process.

We also recommend that the Human Systems Center establish a comprehensive
management control plan for the environmental contracting process.

Management Comments. The Office of the Assistant Secretary of the Air Force
(Acquisition) provided the Air Force response to our draft report findings and
recommendations. The Assistant Secretary partially concurred with our findings,
taking exception with the audit assertion that undefinitized contract actions had been
used excessively by the Air Force Center for Environmental Excellence. The Assistant
Secretary agreed with all recommendations except one. The exception was the draft
recommendation to terminate or request reapproval of the $131 million undefinitized
contract issued to Jacobs Engineering Group. The Assistant Secretary stated that the
contract has been revalidated and is being substantially used; therefore, it would be
impractical to terminate it or request reapproval. The Assistant Secretary agreed to use
undefinitized contract actions only for unforeseen urgent requirements and to
discontinue use of the unilateral ordering procedure for time-and-materials contracts.
Air Force will rescind the unilateral ordering procedure and investigate an alternative
procedure that is responsive to mission needs and consistent with sound business
procedures. He also asserted that procedures are already in place to require prompt
review of contractor charges. The Assistant Secretary stated that the contracting
officers also requested a Defense Contract Audit Agency audit of contractor charges on
delivery order 25 and have questioned more than $600,000 of contractor charges based
on findings from this ongoing audit. See Part I for a discussion of management
comments and Part III for the complete text of management comments.

Evaluation Response. The Air Force comments were generally responsive. We agree
that the finding on excessive use of undefinitized contracts pertained solely to contracts
associated with the Massachusetts Military Reservation; however, we stand by our
characterization of those undefinitized contracts. We will track the future use of
undefinitized contract actions by the Air Force Center for Environmental Excellence
through the audit followup process. We also agree that the Jacobs Engineering Group
contract should proceed.




                                             ii
Table of Contents
Executive Summary
Part I - Evaluation Results
      Evaluation Background
      Evaluation Objectives
      Environmental Contract Administration

Part II - Additional Information
      Appendix A. Evaluation Process
                Scope                                                       20
                Methodology
                Management Control Program                                  ;;
      Appendix B. Summary of Prior Coverage                                 23
      Appendix C. Air Force Center for Environmental Excellence Contracts
                  and Delivery Orders for Massachusetts Military
                  Reservation                                               26
      Appendix D. Summary of Undefinitized Contract Actions                 27
      Appendix E. Summary of Delivery Orders Awarded Using Unilateral
                   Ordering Procedures
      Appendix F. Report Distribution                                       ;:

Part III - Management Comments
      Department of the Air Force Comments                                  32
Part I - Evaluation Results
Evaluation Background
    The Commonwealth of Massachusetts established the Massachusetts Military
    Reservation (MMR) in 1935 as a National Guard training camp and federalized
    MMR in 1940. The MMR covers 34 square miles and is the home to Otis Air
    National Guard Base. The majority of military activity took place from 1940
    through 1970. During that period, MMR generated large amounts of hazardous
    waste. The waste was commonly disposed of by disposing in landfills, dumping
    in storm drains or on the ground, or burning in fire training areas. In 1982,
    DOD initiated the Installation Restoration Program (IRP) at the Otis Air
    National Guard Base portion of MMR to investigate and clean up environmental
    problems. DOD expanded the program in 1986 to include Camp Edwards
    (Army National Guard) and the U.S. Coast Guard Air Station, Cape Cod. In
    1989, the MMR was added to the U.S. Environmental Protection Agency
    (EPA) National Priorities List (superfund). Superfund is a designation
    signifying that the contamination at the reservation is a serious threat to the
    public and the environment, and its cleanup requires EPA oversight.

    The MMR sits on the recharge area (an undeveloped area where rainwater flows
    through the soil) for the only groundwater aquifer from which all of upper Cape
    Cod draws its drinking water. Studies have identified 78 potential pollution
    source areas and 11 major groundwater pollution plumes. These plumes have
    contaminated both residential and public wells near the base. To date, the
    Government has spent more than $200 million for studies, investigations, and
    cleanup at MMR.

    Air National Guard. Headquarters, Air National Guard, Andrews Air Force
    Base, Maryland, managed the IRP program from 1986 through 1989. In 1990,
    the Air National Guard opened a local office at Otis Air National Guard Base to
    manage the IRP. The Air National Guard obtained IRP services through an
    interagency agreement with the Department of Energy (DOE). To accomplish
    the required work, DOE established a contract with a management and operating
    contractor; Martin Marietta Energy Systems, Hazardous Waste Remedial
    Actions Program (HAZWRAP). HAZWRAP subcontracted the majority of the
    IRP work to various subcontractors. The main objective of this work was to
    fully characterize the site conditions at MMR and to complete cleanup. In
    May 1996, the Air National Guard transferred management responsibility for
    MMR to the Air Force Center for Environmental Excellence (AFCEE).
    Therefore, AFCEE administered MMR contracts awarded after May 15, 1996.

    Air Force Center for Environmental Excellence. AFCEE provides a full
    range of technical services in areas related to environmental cleanup, and design
    and construction management. The Human Systems Center (HSC),
    Environmental Contracting Division of the Air Force Materiel Command,
    provides contracting services for AFCEE and establishes operating policy and
    procedures for envi?onmental contracting. The Environmental Contracting
    Division at HSC also solicits, negotiates, awards and administers contracts


                                        2
supporting architectural design and worldwide environmental services for
AFCEE. The IRP office at MMR performs on-site management for execution
of the cleanup program at MMR.

Federal Facility Agreement. The Federal Facility Agreement, July 17, 1991,
and amended April 24, 1997, is an agreement among the EPA, the Air Force,
the National Guard Bureau, and the U.S. Coast Guard that defines
responsibilities and requirements in accordance with the Comprehensive
Environmental Response, Compensation and Liability Act. Specifically, the
agreement:

         o establishes requirements for site inspections, remedial investigations,
feasibility studies, and remedial actions;

         o ensures that remedial actions will accomplish the degree of cleanup
mandated by the Comprehensive Environmental Response, Compensation and
Liability Act and other applicable laws and directives;

       o coordinates response actions with the mission support organizations at
MMR;

        o expedites the cleanup process to protect public health, welfare, and
the environment;

      o provides operation and maintenance of remedial actions selected and
implemented; and

       o identifies appropriate removal actions and provides timely notice of
proposed actions to parties subject to this agreement.

Strategic Plan. AFCEE developed the strategic plan in JuIy 1996 and updated it
in September 1997 to implement the requirements of the Federal Facility
Agreement. The strategic plan outlines the mission and roles of key DOD
agencies that have an interest in the MMR IRP, and provides a comprehensive
plume response plan that documents findings of technical evaluators, and
includes the schedule for implementing those findings. The objectives of the
strategic plan were to:

       o remediate community groundwater resources;

       o complete the MMR cleanup;

        o protect human health and the environment from the hazards of past
practice;

       o maintain and strengthen community involvement through full and
open disclosure, by obtaining community ideas for developing solutions;




                                      3
            o develop partnerships with regulatory agencies; and

            o earn and restore public trust and confidence in the DOD commitment
     and capability to respond effectively to challenging contamination situations.

Evaluation Objectives
     Our overall objective was to evaluate the validity of the contractual, technical,
     and managerial processes associated with the cleanup actions at MMR. This
     report discusses our evaluation of the contractual processes. The technical and
     managerial processes will be discussed in a subsequent report. The management
     control program as it applied to the award, administration, and oversight of
     environmental contracts was also evaluated.

     See Appendix A for a discussion of the evaluation process and details of our
     review of the management control program. See Appendix B for a summary of
     prior coverage related to the evaluation objectives.
            Environmental Contract Administration
            AFCEE needs to improve management of environmental contracts for
            the MMR. AFCEE routinely used undefinitized contract actions (UCAs)
            and unilateral ordering procedures (UOPs) to expedite work. Also,
            AFCEE allowed the contractor to perform work outside the scope of the
            contract, and did not promptly review invoices to identify unallowable
            or questionable costs. This occurred because the Air Force entered into
            an unrealistically aggressive Federal Facilities Agreement and did not
            consider contract lead time when negotiating milestones. As a result,
            AFCEE used UCAs and UOPs to meet deadlines; and the Government,
            not the contractor, absorbed all the risk of cost growth related to the
            contracted work. Ineffective contract management also increased the
            risk of the Government paying for unallowable services, services in
            excess of contract requirements, and for goods and services not received.


Contract Administration Criteria
     Federal Acquisition Regulation. The Federal Acquisition Regulation (FAR)
     provides contract administration guidance in areas such as selecting contract
     type, cost reimbursement contracts, undefinitized contracts, and contract
     oversight. The FAR guidance is intended to reduce the risk of cost growth,
     encourage efficient and effective contractor performance, and minimize the
     amount of Government oversight required to administer contracts.

     Negotiating Contract Type. FAR 16.103, “Negotiating Contract Type, n
     states that the objective of negotiating the contract type and price (or estimated
     cost and fee) is to select the type of contract that will result in reasonable
     contractor risk and will provide the contractor with the greatest incentive for
     efficient and economical performance. The FAR also states that a firm, fixed-
     price contract shall be used when the risk involved is minimal or can be
     predicted with an acceptable degree of certainty. The FAR further states that in
     the course of an acquisition program, a series of contracts, or a single long-term
     contract; changing circumstances may make a different contract type than that
     used at the outset more appropriate in later periods. In particular, the
     contracting officer should avoid the protracted use of cost-reimbursement or
     time-and-materials contracts after experience provides a basis for firmer pricing.

     Factors in Selecting Contract Types. FAR 16.104, “Factors in Selecting
     Contract Types, ” states that the contracting officer should consider the extent
     and nature of proposed subcontracting when selecting and negotiating the
     contract type. If the contractor proposes extensive subcontracting, a contract
     type reflecting the actual risks to the prime contractor should be considered.




                                          5
Environmental Contract Administration


      Cost-Reimbursement Contracts. FAR 16.3, “Cost-Reimbursement
      Contracts, * states that a cost reimbursement contract may be used only when
      appropriate Government surveillance during performance will provide
      reasonable assurance that efficient methods and cost control are used. The use
      of cost-reimbursement contracts for acquisition of commercial items is
      prohibited.

      Time-and-Materials Contracts. FAR 16.601, “Time-and-Materials
      Contracts, ” states that time-and-materials contracts may be used only when it is
      not possible to accurately estimate the extent or duration of work, or to
      anticipate costs with any reasonable degree of accuracy.

      Firm-Fixed-Price Contracts. FAR 16.202, “Firm-Fixed-Price Contracts,”
      states that firm-fixed-price contracts place maximum risk and full responsibility
      for all costs and for resulting profit or loss on the contractor. Those contracts
      provide maximum incentive for the contractor to control costs and perform
      effectively. Firm-fixed-price contracts also place less administrative burden on
      the Government and the contractor.


Undefinitized Contract Actions
      Initial Undefinitized Contract. AFCEE adequately supported and obtained the
      proper approval for issuing the initial UCA for work at MMR. However,
      AFCEE inappropriately issued five additional UCAs, instead of definitive
      delivery orders, on later contract actions. The UCAs were awarded to expedite
      award of delivery orders for environmental studies, sampling, and cleanup that
      were not urgent requirements. Defense Federal Acquisition Regulation
      Supplement 217.7403 states that UCAs shall be used only when:

             o negotiation of a definitive contract action is not possible in sufficient
      time to meet the Government’s requirements and

             o the Government’s interest demands that the contractor be given a
      binding commitment so that contract performance may begin immediately.

      In April 1996, the parties to the Federal Facility Agreement (FFA) (the Army,
      the Air Force, the National Guard Bureau, the Coast Guard, and the EPA)
      agreed to transfer responsibilities of lead management agent for the installation
      restoration program at MMR to AFCEE. In May 1996, AFCEE issued the first
      delivery order (DO) for work at MMR to Jacobs Engineering Group, DO 0025
      on contract F41624-94-D-8115. The purpose of DO 0025 was to provide full
      remedial action at MMR. The DO was awarded as a UCA to accomplish a
      limited amount of the required work. The estimated cost for the DO was $1.5
      million; and a not-to-exceed price of $750,000 was established to compel the
      contractor to submit a proposal for a definitized contract before funds were
      expended.



                                            6
                                        Environmental Contract Administration


The AFCEE request for authority to issue a UCA for DO 0025 stated that the
UCA was required to meet milestones established by environmental regulators
and set forth in the FFA. The request also stated that the Air Force made a
commitment to the EPA and the community, that an operational well head
treatment system for chemical spill site number 4 would be in place no later
than July 4, 1996. The short suspense for the milestone justified issuing a
UCA. However, AFCEE improperly used UCAs for subsequent modifications
to DO 0025 and eventually increased the cost from the initially approved
$1.5 million to $67.5 million.

        Delivery Order 0025. Except for the initial contracting action, AFCEE
did not have adequate justification for issuing UCAs on contract number F4162-
94-D-8115, DO 0025. Also, AFCEE did not always disclose the total price of
the requirement when requesting approval to issue UCAs.

For example, AFCEE issued the basic delivery order as a UCA on May 28,
1996, with a not-to-exceed price of $750,000. The justification and approval
and legal review for DO 0025 estimated $1.5 million as the total amount
“necessary for the effort as scoped. ” In the legal review, AFCEE stated that
only the well head treatment portion of the total requirement for Chemical Spill
number 4 was urgent. However, on June 5, 1996, eight days after award of the
basic delivery order, AFCEE issued modification 1 and increased the estimated
cost to about $37.4 million and increased the not-to-exceed price to $41.5
million. Given the magnitude of the increase in estimated costs, $37.4 million,
and the short period between the initial delivery order and modification 1,
AFCEE should have known that the requirement on DO 0025 would exceed
$1.5 million. Therefore, AFCEE should have requested approval for the full
amount of the UCA, or awarded a definitive delivery order for the remaining
$37.4 million.

On April 24, 1997, AFCEE issued modification 6 to DO 0025 as a UCA and
increased the not-to-exceed amount to $67.5 million. The justification and
approval for that modification stated that the UCA was required to continue
critical plume response work at the MMR. The justification and approval stated
that award of a definitive modification would require 75 days, and failure to
issue a UCA would require work to be stopped and would cost the Government
about $1 million. As work progressed, requirements should have become more
defined, and AFCEE should have exercised more effective planning and
reduced the need for UCAs.

        Delivery Order 0041. AFCEE awarded DO 0041, Crescent Road
Water hookups to Jacobs Engineering Group as a UCA on September 20, 1996,
and definitized the DO on December 4, 1996 for $289,216. AFCEE approved
a cost-plus-award-fee contract and a maximum fee of 10 percent, even though
the prime contractor awarded a subcontract with the Mashpee, Massachusetts,
Water District to accomplish the majority of the work. The final negotiation
memorandum showed a subcontract price of $231,885, which included a
firm-fixed-price agreement for administrative, engineering, and management
costs of $63,706 and cost-plus-fixed-fee agreement for construction costs of
$168,179. Th e majority of the risk on the delivery order is assumed by the
subcontractor.

                                    7
Environmental Contract Administration


      Therefore, a cost-plus-award        contract was      reasonable, and       lo-
      percent       was excessive.           should have            a cost-plus-fixed-fee,
         a firm-fixed-price           to the         Engineering Group,              the
      award       to an         commensurate with        risk assumed      the contractor,
         contracted directly       the subcontractor      a firm-fixed-price             or
      cost-plus-fixed-fee

                Delivery Order          AFCEE issued UCA for            0042 to
      Engineering Group,           though Jacobs          a subcontract   the city
      Falmouth, Massachusetts,        install the       lines. AFCEE              DO 0042,
                   Water Hookups       March 26, 1997, and              the DO         13,
       1997,       $2 million.       AFCEE justification       the UCA stated that it was
      issued because 30 days were required to award a negotiated contract. The
      justification state that during the 30-day delay, the Government would be
      required to provide bottled water to residents of Falmouth, incurring a total cost
      of $3,000. The justification did not meet the criteria for an emergency. The
      preliminary price negotiation memorandum, dated May 9, 1997, showed that
      Jacobs Engineering Group planned to award a $1.5 million subcontract for
      engineering support, technical inspections, and plumbing services to the city of
      Falmouth. The nature and extent of work was well defined, and the majority of
      the risk for the work was assumed by the subcontractor. Therefore, AFCEE
      should have awarded a firm-fixed-price contract to Jacobs or directly to the city
      of Falmouth. Also, the risk of inadequate performance or cost growth on the
      UCA may exceed the benefits of the estimated $3,000 cost avoidance.

      Follow-on Undefinitized Letter Contract. On May 9, 1997, AFCEE awarded
      contract F41624-97-D-8006, a $13 1 million undefinitized sole-source letter
      contract, to Jacobs Engineering Group for follow-on work at MMR. The
      contract did not meet the urgency requirement standards in the Defense Federal
      Acquisition Supplement. AFCEE obtained the appropriate approvals for the
      contract; however, 10 months after the request was initiated, no delivery orders
      had been awarded. The justification and approval states that the contract is
      necessary to continue to meet aggressive schedules required by environmental
      regulators and to avoid fines and stipulated penalties. AFCEE stated that the
      project was urgent because the estimated cost to complete work in FY 1997 and
      beyond was $244 million, and the contract was approaching its $150 million
      ceiling price. The justification and approval for the contract was issued in
      December 1996. The Principal Assistant Secretary of the Air Force
      (Acquisition) signed the approval of final acquisition in February 1997 and the
      contract was awarded in May 1997. As of September 1997, however, AFCEE
      had not awarded any work on the contract.


Unilateral Ordering Procedures
      AFCEE implemented a contracting procedure referred to as a UOP, that
      increases the risk of cost growth and inadequate contractor performance. Also,
      the UOP contradicts guidance established by FAR 16.601, which states that:


                                             8
                                              Environmental Contract Administration


           A time-and-materials contract may be used only when it is not
           possible at the time of placing the contract to estimate accurately the
           extent or duration of work or anticipate the costs with any reasonable
           degree of confidence.

The UOP is a unilateral contracting method developed by AFCEE to expedite
award of delivery orders on time-and-materials level-of-effort contracts. The
AFCEE Team Chief’s Project Management Manual, May 1995, states that the
UOP is used only on time-and-materials delivery orders that have a well-defined
scope of work. The manual also states that this approach shortens the delivery
order award time by eliminating the proposal preparation and evaluation, and
negotiation. AFCEE issued UOPs on all five delivery orders issued on the four
time-and-materials contracts included in our review.

The contracting officer stated that in accordance with UOP guidance approved
by the Air Force Materiel Command, the UOP is used only when the
Government has a well-defined scope of work and can estimate with a
reasonable degree of accuracy, the amount of time, materials and other
resources required to complete a specific task. The contracting officer stated that
the risk of defective pricing is low because labor rates, overhead, profit and
general and administrative rates are established in the basic contract, and that
the materials used on the contracts were mostly commercial items that do not
require cost and pricing data. The contracting officer further stated that the risk
of substandard contractor performance is mitigated by implementing a field
surveillance plan, which requires increased contractor oversight.

The UOP increases risk to the Government because time-and-materials level-of-
effort contracts require the highest level of Government oversight. The cost of
this additional administrative and field oversight may exceed any savings
expected from awarding UOPs. Also, even if the orders exceed $500,000, the
UOP does not require cost and pricing data. Even though the Government
estimate may include a significant amount of commercial items, the UOP, other
than the not-to-exceed price, does not place cost constraints on the contractor.
The risk to the Government is increased because the contractor may use the
funds for costs other than materials or other commercial items.

Contract F41624-94-D-8046, DO 0031, awarded to Jacobs Engineering Group
is an example of inappropriate use of UOPs on time-and-materials contracts.
Delivery order 0031 was awarded to Jacobs Engineering on April 22, 1996,
with a ceiling price of $74,388. The DO included requirements for the Plume
Containment Management Plan for Otis Air National Guard Base, a feasibility
study, installation of monitoring wells, and water sampling. As of June 1997,
AFCEE had issued seven UOPs on modifications to DO 003 1, and had
increased the initial ceiling price from $74,388 to $3.9 million. Modification 6
to DO 0031, dated March 6, 1997, accounted for $2.1 million of the
$3.9 million ceiling. A chart showing a summary of modifications on DO 0031
is in Appendix E.

The $2.1 million ceiling price for modification 6 was established from
information in the Independent Government Estimate. This estimate included
$766,057 for labor and $1.36 million for support costs, which included an

                                          9
Environmental Contract Administration


      estimated $1.1 million for drilling subcontracts. The AFCEE stated that the
      UOP did not increase the Government risk because the drilling costs and labor
      requirements could be estimated with a reliable degree of accuracy.

      If costs and requirements can be estimated with a reliable degree of accuracy,
      AFCEE should negotiate firm-fixed-price contracts or other cost-type contracts.
      The Government must expend additional resources to monitor the contractor’s
      performance and costs for contracts awarded as UOPs on time-and-materials
      contracts. The cost of the additional resources may exceed any cost savings
      expected from issuing UOPs.


Work Outside The Contract Scope
      The AFCEE did not effectively monitor and approve contractor performance on
      contract F41624-94-D-8115, DO 0025. Some of the additional work was
      directed by the AFCEE program manager at the request of representatives from
      the local community. The request resulted in the contractor performing work
      that was outside the contract scope, which increased Government costs for work
      that was not supported by contract modifications. For example:

             o On January 3, 1997, the contractor notified the Government that costs
      had been incurred for work that was not planned for DO 0025. The work
      included additional sampling, drilling, and preparing of ecological and
      environmental studies.

              o In a January 11, 1997, memorandum, the contracting officer stated
      that the contractor was probably invoicing for new work (FY 1997
      requirements) on DO 0025, leaving no funds for FY 1996 requirements. The
      contracting officer stated that work on fuel spill site number 12 was not funded
      and would require either a UCA to fund the requirement, or notification to the
      contractor that they were at risk.

              o Jacobs Engineering Group stated in a January 20, 1997 letter that
      costs for the additional 33 test wells and 130 additional samples was $930,000
      more than the negotiated baseline estimate. In a January 27, 1997
      memorandum, the contracting officer stated that the contractor’s cost
      performance report showed a potential $16.1 million cost overrun. That trend
      was noted during a 3-month monitoring process as cost variances increased from
      $5 million to $8 million to $16.1 million. The contracting officer provided
      three options:
                     o stop work on the entire program under DO 0025,

                     o issue a partial stop work order and fund only a portion of the
             projects until additional funding became available, or

                    o obtain funds from the Air Force to fund all requirements that
             had been validated.

                                          10
                                             Environmental Contract Administration


              o In a January 24, 1997 point paper, the AFCEE MMR program
     coordinator stated that Jacobs Engineering Group initiated so much new work
     on DO 0025 that the contracted tasks could no longer be completed for the
     existing $39 million. For example, the FY 1996 project included a requirement
     for three test wells at a cost of $800,000. The point paper stated that the
     requirement had been increased to 64 wells, of which 39 had already been
     drilled.

     The AFCEE should monitor the contractor’s work and should ensure that the
     contractor does not perform services outside the scope of work without
     Government approval of funding as well as an approved contract modification.
     In addition, AFCEE should not pay the contractor for any work in excess of the
     amount contracted for by the Government.


Review of Contractor Invoices
     AFCEE did not promptly review contractor charges for work performed on
     contract F4162-94-D-8115, DO 0025. As of September 1997, the contracting
     officer representative (COR) had not reviewed contractor charges totaling
     $37.3 million for work performed from November 30, 1996, through August 1,
     1997, to determine that cost reimbursements were accurate, reasonable and
     allowable. DO 0025 was awarded as a UCA on a cost-plus-award-fee contract
     and was modified three times with UCAs. The risk of cost growth on cost-type
     contracts is generally greater than on firm-fixed-price contracts. This risk is
     increased with the use of UCAs. Prompt review of contractor invoices is
     essential to reduce the risk of contractor cost growth on UCAs, and to ensure
     that the Government does not pay for unreasonable or unallowable costs.

     Contracting Officer Representative Responsibilities. Prior to awarding a
     project, the contracting officer may delegate authority to an on-location
     contracting officer and appoint a COR to oversee the contractor’s performance
     of the delivery order. The COR is usually the team chief and/or the field
     engineer. The AFCEE team chief’s project management manual states that
     project cost reviews are critical to project execution and that the COR is
     responsible for:

            o determining that work claimed during the period was actually
     performed,

               o determining that the number of hours claimed is valid for the tasks
     billed,

             o reviewing and approving invoices and payment vouchers to ensure the
     contractor appropriately bills travel and other direct costs,




                                           11
Environmental Contract Administration


             o documenting any invoice discrepancies in a memo and coordinating
      with the HSC contracting office, and

            o monitoring a contractor’s deliverable quality and technical approach
      by comparing the work performed with the requirements in the statement of
      work.

      The COR assigned to oversee work performed under DO 0025 at MMR did not
      review contractor invoices in accordance with the Environmental Restoration
      Contracting Procedures Manual.

      Invoice Processing. The prime contractor submits billing invoices monthly.
      The contractor provides the COR with substantial documentation to support
      costs incurred for each billing period of an invoice including labor summaries,
      subcontract costs, other direct costs, and vendor invoices for expenses greater
      than $1,000. As of September 18, 1997, the COR had not reviewed eight
      invoices totaling $37.3 million for work performed at MMR between
      November 30, 1996, and August 1, 1997. The most recent invoice reviewed by
      the COR was for work performed from November 1 through 29, 1996. The
      COR questioned numerous cost items in a letter to the contracting officer on
      April 7, 1997. As of September 25, 1997, the contracting officer had not
      resolved the questioned costs, and the COR had not certified the invoice. The
      COR stated that other priorities prevented him from reviewing invoices and
      stated that a Systems Engineering and Technical Assistance (SETA) contractor
      review of invoices would validate contractor billings.

      Systems Engineering and Technical Assistance Contractor.          The AFCEE
      contracted with a SETA contractor to assist the AFCEE team chief monitor
      project execution. One responsibility of the SETA contractor is to review the
      IRP contractor’s invoice submissions to ensure that charges are consistent with
      the statement of work. The SETA contractor did not verify that the work billed
      was actually performed by the IRP contractor. Therefore, a timely review of
      invoices by the COR was necessary to ensure the accuracy of contractor
      billings. The SETA contractor had reviewed all invoices submitted by the IRP
      contractor. The reviews resulted in questioned charges including travel, labor
      hours, and property costs. However, the contracting officer had not taken
      action to resolve the questioned charges noted in the five reports submitted by
      the SETA contractor. The contracting officer stated that as a result of travel
      and labor costs questioned by the COR, AFCEE requested the Defense Contract
      Audit Agency to perform a cost-incurred audit. As of September 30, 1997, the
      Defense Contract Audit Agency had started, but not completed the audit of
      travel and overtime charges at MMR.


Evaluation Summary
      AFCEE inappropriately used UCAs and UOPs to expedite award of delivery
      orders. Therefore, the risk of cost growth and ineffective contractor
      performance was increased. UCAs and UOPs did not provide a positive
      incentive for the contractor to control costs or perform services in a highly
                                          12
                                          Environmental Contract Administration


    efficient manner. Also, AFCEE did not review contractor invoices totaling
    $37.3 million in a timely manner, to ensure that costs were reasonable and
    allowable. Neither AFCEE nor the HSC had established effective management
    controls for environmental contracting. That increases the risk that deficiencies
    may occur and may not be detected and corrected promptly. AFCEE should
    designate environmental contract administration as an assessable unit and
    perform periodic tests of controls. HSC should prepare a management control
    plan that includes tests of controls and milestones for completion of reviews of
    environmental contract administration.



Management Comments on the Finding and Evaluation
Response
    Management Comments. The Assistant Secretary agreed to limit the use of
    undefinitized contract actions, but did not agree that UCAs were used
    excessively. The Assistant Secretary stated that the AFCEE used UCAs for
    only 6 of 83 contract actions awarded. The Assistant Secretary stated that an
    Air Force Materiel Command review of the UOP showed that the HSC
    complied with Air Force Materiel Command policies and procedures. The
    Assistant Secretary stated that HSC supported each contract award with a
    determination and finding, and developed independent government estimates to
    establish the price for delivery orders awarded using the unilateral ordering
    procedure. The Assistant Secretary stated that those independent government
    estimates contained as much cost and pricing detail as is required from the
    contractor when requesting a proposal. Also, the Assistant Secretary stated that
    the UOP does not increase risk to the Government because the level of contract
    surveillance is increased.

    Evaluation Response. The finding states that the excessive use of undefinitized
    contract actions was noted in 5 of 6 contracts associated with the MMR, not in
    all AFCEE contracts. We do not agree with other management comments on
    the finding concerning the use of UCAs, Government risk associated with the
    use of UOPs, and contracting officer review of invoices. AFCEE issued UCAs,
    estimated at $175 million, on 5 of the 12 contract actions awarded for work at
    the MMR. The five UCAs included a May 1997 $13 1 million letter contract,
    approved as an urgent requirement. As of September 11, 1997, no work had
    been awarded on the contract. The nonuse showed that the contract was not
    urgent and, therefore, did not meet the FAR and Defense Federal Acquisition
    Regulation Supplement criteria for UCAs. Despite that fact, the HSC
    definitized the contract in November 1997 at a cost of $131 million and has
    issued 11 actions on it valued at more than $27 million (see Appendixes C and
    D).
    As discussed in the finding, the UOP contradicts FAR requirements for time-
    and-material contracts. The FAR states that time-and-material contracts should
    be used only when the time frame and the extent of work cannot be reasonably
    determined at the time of contract award. Air Force Materiel Command
    directives state that the UOP may be used for time-and-materiel contracts when
    the extent of work and the time required to complete the requirement may be
                                        13
Environmental Contract Administration


      determined with reasonable certainty at the date of contract award. Obtaining
      an independent Government estimate does not reduce the risk of contractor
      nonperformance, and does not provide the Government a remedy for defective
      pricing. Also, we do not agree that Government surveillance at MMR is
      adequate to minimize Government risk on the UOP. Any benefits gained from
      a fast award of time-and-materiel contracts awarded using the UOP may not
      justify the increased cost and manpower required to effectively monitor
      performance and cost on the contracts.

      Also, the AFCEE should place additional emphasis on existing procedures to
      ensure timely contracting officer review of contractor invoices, and prompt
      resolution of any questioned or unallowable contractor costs. Although
      procedures may already be in place, the contracting officer had not reviewed or
      approved contractor invoices for DO 25 in 8 months. Those invoices totaled
      $37.7 million. The Defense Contract Audit Agency audit requested by AFCEE
      should be used to supplement the contracting officer review of questionable
      contractor charges and not as a substitute for a timely contracting officer review
      of contractor invoices.




                                          14
                                         Environmental Contract Administration



Recommendations, Management Comments, and Evaluation
Response
    Deleted Recommendation, Renumbered Recommendations, and Revised
    Recommendation. As a result of management comments on the draft report,
    we deleted Draft Recommendation 2.~. Draft Recommendation 2.d. has been
    renumbered Recommendation 2.~. and Draft Recommendation 2 .e. has been
    renumbered Recommendation 2.d. As a result of management comments, we
    revised Recommendation 3. to clarify our intention on whom should establish an
    effective management control plan.

    1. We recommend that the Commander, Air Force Materiel Command:

            a. Perform periodic reviews of the support for the use of
    undefinitized contract actions at the Air Force Center for Environmental
    Excellence to ensure that undefinitized contract actions are used only for
    unforeseen urgent requirements, rather than to routinely expedite
    obligations.

    Assistant Secretary of the Air Force (Acquisition) Comments. The Assistant
    Secretary did not provide comments on this recommendation, but addressed the
    recommendation in comments on Recommendation 2. The Assistant Secretary
    agreed with our recommendation that undefinitized contract actions should be
    used only for unforeseen, urgent requirements. However, the Assistant
    Secretary stated that undefinitized contract actions were used for only 6 of 83
    total contract actions, and that all 6 actions were issued in compliance with
    applicable regulations and policies.

    Evaluation Response. We consider the Assistant Secretary comments to be
    responsive. Our review showed that the Air Force Center for Environmental
    Excellence awarded undefinitized contract actions for 5 of the 12 contract
    actions (11 delivery orders and 1 letter contract) awarded for work at the MMR.
    The estimated cost for the five undefinitized contract actions was more than
    $175 million, and included a $131 million letter contract. The letter contract
    was approved in April 1997, but still had not been used as of September 1997.
    The nonuse showed that the contract was not urgent and, therefore, did not meet
    the FAR and Defense Federal Acquisition Regulation Supplement criteria for
    undefinitized contract actions. Despite that fact, the Human System Center
    definitized the contract in November 1997 at a cost of $13 1 million and has
    issued 11 actions on it valued at more than $27 million (see Appendix C and
    Appendix D). Because a significant amount of work has been performed and
    funds have been awarded on the contract, we agree that it would not be
    reasonable to terminate or request reapproval for the contract at this time.




                                       15
Environmental Contract Administration


             b. Rescind the approval for the unilateral ordering procedure for
      time-and-materials contracts.

      Assistant Secretary of the Air Force (Acquisition) Comments. The Assistant
      Secretary did not provide comments on this recommendation, but adequately
      addressed the recommendation in its comments on Recommendation 2. The
      Assistant Secretary agreed with the recommendation, stating that based on our
      findings and those from the Air Force Materiel Command, the Human Systems
      Center will rescind the unilateral ordering procedure.

      Evaluation Response. Comments from the Assistant Secretary are responsive
      to our recommendation.

      2. We recommend that the Director, Air Force Center for Environmental
      Excellence:

             a. Discontinue use of undefinitized contract actions, except those
      requirements that meet the criteria defined in the Federal Acquisition
      Regulation and DOD Federal Regulation Supplement.

      Assistant Secretary of the Air Force (Acquisition) Comments. The Assistant
      Secretary concurred with the recommendation, but stated that use of
      undeftnitized contract actions by the AFCEE was limited, and was in
      compliance with applicable directives.

      Evaluation Response. We consider the comments from the Assistant Secretary
      to be responsive to our recommendation, but not responsive to the finding.

            b. Discontinue the use of the unilateral ordering procedure for time-
      and-materials contracts.

      Assistant Secretary of the Air Force (Acquisition) Comments. The Assistant
      Secretary concurred, with reservations, and stated that an Air Force Materiel
      Command review of the UOP showed that the Human Systems Center complied
      with Air Force Materiel Command policy and procedures, and supported each
      contract award with a determination and finding. The UOP does not increase
      risk to the Government because the level of contract surveillance is increased.
      Also, the Human Systems Center developed independent government estimates
      to establish the price for delivery orders awarded using the unilateral ordering
      procedure. The Assistant Secretary stated that those independent government
      estimates contained as much cost and pricing detail as is required from the
      contractor when requesting a proposal. However, the Assistant Secretary
      agreed to rescind the unilateral ordering procedure and investigate an alternate
      contracting procedure to respond to mission needs.




                                          16
                                      Environmental Contract Administration


        c. Require that the contracting officer validate contractor charges
and certify invoices for payment within 30 days of receipt. Initiate actions
to resolve all charges questioned by the contracting officer representative
and the support contractors within 30 days of receipt. Initiate actions to
recover all costs determined to be unallowable.

Assistant Secretary of the Air Force (Acquisition) Comments. The Assistant
Secretary concurred and stated that policies and procedures are already in place
to require the AFCEE to implement the recommendation, and that all invoices
for work at the MMR had been reviewed and approved except DO 25. Based
on a preliminary review of contractor charges, the contracting officer requested
the Defense Contract Audit Agency to audit contractor charges for DO 25. The
Air Force stated that findings from the ongoing audit have, thus far, resulted in
more than $600,000 in questioned costs. The Assistant Secretary stated that
hundreds of comments from the COR and contracting officer’s representative
remain unresolved, but are being negotiated with the contractor. The AFCEE
invoicing process requires that all issues be resolved before invoices are signed
and approved.

Evaluation Response. Comments from the Assistant Secretary partially meet
the intent of our recommendations. Although procedures may be in place, the
contracting officer had not reviewed or approved contractor invoices for DO 25
in 8 months. The invoices totaled $37.7 million. The Defense Contract Audit
Agency should be used to supplement the contracting officer review of
questionable contractor charges and not as a substitute for a timely contracting
officer review of contractor invoices. The AFCEE should place additional
emphasis on existing procedures to ensure that the contracting officer reviews
contractor invoices in timely manner, and to ensure prompt resolution of any
questioned or unallowable contractor costs

       d. Require AFCEE to review environmental contract administration
as a part of its self evaluation.

Assistant Secretary of the Air Force (Acquisition) Comments. The Assistant
Secretary did not provide a specific response to this recommendation, but
addressed it in the comments on Recommendation 4. The Assistant Secretary
concurred with the recommendation and agreed to establish an assessable unit
for environmental contract administration and perform periodic self assessments
of this function.

3. We recommend that the Commander, Human Systems Center
coordinate with the Air Force Center for Environmental Excellence to
establish a management control plan that includes target dates for reviews
and assessments of environmental contract administration.

Assistant Secretary of the Air Force (Acquisition) Comments. The Assistant
Secretary concurred and agreed to take corrective action. The Assistant
Secretary stated that the Human Systems Center Handbook, published in
October 1997, documents management control procedures and oversight
activities that are applicable to the various contracting divisions of the Human
Systems Center. Also, self-assessments are performed to help improve

                                    17
Environmental Contract Administration


      processes and identify additional training needs. The Assistant Secretary stated
      that in November 1997, a team of contract specialists from the Human Systems
      Center conducted a post award review of FY 1997 contracting actions at
      AFCEE and presented the significant findings in three training seminars.

      4. We recommend that the Director, Air Force Center for Environmental
      Excellence include environmental contracting in an assessable unit in the
      Center’s Management Control Plan and conduct periodic self assessments
      to help ensure that effective controls are in place for environmental
      contract administration.

      Assistant Secretary of the Air Force (Acquisition) Comments. The Assistant
      Secretary concurred and agreed to establish an assessable unit for environmental
      contracting.




                                          18
Part II - Additional Information
Appendix A. Evaluation Process


Scope
    Work Performed. We reviewed all 11 open delivery orders on 6 contracts
    issued by the AFCEE for work at MMR. As of June 2, 1997, the delivery
    orders were valued at $87.2 million. We also reviewed the $13 1 million
    undefinitized letter contract for follow-on work at MMR. In addition, we
    judgmentally selected seven delivery orders on four open contracts issued by the
    National Guard Bureau and the U.S. Property and Fiscal Office.

    Limitations to Evaluation Scope. We did not evaluate the cost-effectiveness
    of acquiring IRP services through DOE. Numerous Inspector General, DOD;
    Air Force Audit Agency; and Army Audit Agency reports have identified
    systemic problems with contracting for services through DOE. Management
    responsibility for the MMR IRP was transferred to AFCEE in May 1996;
    therefore, our evaluation of the cost-effectiveness of contracting for IRP
    services was performed at AFCEE. See Appendix B for a summary of prior
    coverage.

    We performed a limited review of information provided by the Office of the
    Inspector General, DOE, to determine whether the expected benefits of an
    evaluation at HAZWRAP would justify the estimated costs. The information
    we reviewed included:

           0   HAZWRAP funding history,

           0   MMR funding utilization,

           0   MMR subcontract summary,

           0   summary of outstanding final deliverables, and

           0   costs by project category.

    Also, the Office of the Inspector General, DOE, was performing an internal cost
    verification review of contract charges from HAZWRAP.

    DOD-wide Corporate Level Government Performance and Results Act
    (GPRA) Goals. In response to the GPRA, the Department of Defense has
    established 6 DOD-wide corporate level performance objectives and 14 goals for
    meeting these objectives. This report pertains to the achievement of the
    following objective and goal:

           Objective: Fundamentally reengineer the Department and achieve a
           21st century infrastructure. Goal: Reduce costs while maintaining
           required military capabilities across all DOD mission areas. (DOD-~)
                                            20
                                                 Appendix A. Evaluation Process


    DOD Functional Area Reform Goals. Most major DOD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to the following functional area objective and goal:

           Environment Functional Area. Objective: Reduce, in a cost effective-
           manner, risks to human health and the environment attributable to
           contamination resulting from past DOD activities. Goal: Comply with
           statutes, regulations, Executive Orders, and other legal requirements
           governing cleanup of contamination. (ENV- 1.3)

    General Accounting Office High Risk Area. The General Accounting Office
    (GAO) has identified several high risk areas in the DOD. This report provides
    coverage of the Defense Contract Management area.


Methodology
    Use of Computer-Processed Data. We did not use computer-processed data in
    performing this evaluation.

    Universe and Sample. We interviewed contracting personnel and
    environmental managers and reviewed the contracting instruments that were
    used to obtain IRP services. We reviewed:

           o IRP decision documentation,

           o IRP funding documents,

           0 contracts,

           o justification and approval documentation,

           o statements of work,

           o contract status reports, and

           0 contractor invoices.

    Evaluation Type, Dates and Standards. We performed this economy and
    efficiency evaluation from May through December 1997, in accordance with
    evaluation standards implemented by the Inspector General, DOD. The
    evaluation included tests of management controls considered necessary.

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DOD. Further details are available on request.




                                       21
Appendix A. Evaluation Process


Management Control Program
      DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
      requires DOD organizations to implement a comprehensive system of
      management controls that provides reasonable assurance that programs are
      operating as intended and to evaluate the adequacy of the controls.

      Scope of Review of the Management Control Program. We reviewed the
      adequacy of management controls over the procurement and oversight of
      AFCEE environmental contracts at MMR.

      Adequacy of Management Controls. We identified material management
      control weaknesses as defined by DOD Directive 5010.38. The AFCEE
      management control program did not include an assessable unit for
      environmental contract management. The Human Systems Center had
      established environmental contracting as an assessable unit, but did not develop
      a plan for periodic evaluations of management controls. Recommendations 2.d.
      and 3.) if implemented, will improve environmental contract management
      procedures. A copy of the report will be sent to the senior Air Force officials
      in charge of management controls.

      Adequacy of Management’s Self-Evaluation. As indicated in this report,
      AFCEE had not identified functions of the environmental contracting office as
      an assessable unit. The Human Systems Center identified environmental
      contract management as an assessable unit but did not prepare a management
      control plan to schedule self-evaluations of environmental contract
      administration. Therefore, neither AFCEE nor the Human Systems Center
      identified or reported the material management control weaknesses identified by
      our audit.




                                         22
Appendix B. Summary of Prior Coverage

Inspector General, DOD
    Inspector General, DOD, Report No. 97-204, “Undefinitized Contract
    Actions,” August 15, 1997. The report states that although compliance with
    the statutory provisions on UCAs has improved, there is still widespread
    noncompliance, despite much attention from Congress, the Office of the
    Secretary of Defense, and the Military Departments during the last 8 years. For
    the 189 letter contracts reviewed during the audit, valued at $10.7 billion,
    contracting officials did not:

            o adequately justify issuance of 65 letter contracts, valued at
    $3.9 billion;

            o definitize 90 letter contracts, valued at $6.8 billion, within the
    required 180-day time frame (29 percent were not definitized within 1 year);
    and

           o document the reasonableness of negotiated profits of $26.8 million
    that were not commensurate with contractor risk.

    As a result, the Military Departments assumed increased cost risk in the reward
    and negotiation process, and negotiated profits of $26.8 million that were not
    commensurate with contractor risk.

    Additionally, the report states that the Defense Contract Action Data System
    identifies letter contracts, but does not identify other categories of undefinitized
    contract actions. As a result, DOD does not have an effective system to track
    the award and definitization of all undefinitized contract actions.

    The report recommended that the Service Acquisition Executives issue guidance
    to their contracting organizations requiring:

            o justification documents for all letter contracts to provide specific
    details on the procurement requirement, the procurement planning performed,
    and the adverse effect if the procurement is delayed;

           o contracting officers to meet milestone dates established for the
    issuance of letter contracts; and

             o each contracting organization to establish performance goals for
    definitizing undefinitized contract actions and compliance with other statutory
    and regulatory requirements for undefinitized contract actions and to report
    annually their performance in meeting goals.




                                          23
Appendix B. Summary of Prior Coverage


      The report recommended that the Director of Defense Procurement implement a
      design change to the Defense Contract Action Data System to collect
      information on all categories of undefinitized contract actions and request the
      contracting organizations to periodically verify the status of undefinitized letter
      contracts in the Defense Contract Action Data System.

      The Army and Air Force agreed with the recommendations. The Navy did not
      comment. The Director of Defense Procurement nonconcurred with the
      recommendation to implement a design change to the Defense Contract Action
      Data System, and partially concurred with the recommendation to request
      contracting organizations to periodically verify the status of undefinitized letter
      contracts in the Defense Contract Action Data System.

      Inspector General, DOD, Report No. 98-076, “Funds Used for the Arctic
      Environmental Cooperation Program,” February 17, 1998. The report
      states that the Inspector General, DOD, could not verify that Environmental
      Security Technology Certification Program funds provided for the Arctic
      Military Environmental Cooperation Program were used for their intended
      purpose. The funds were not used in the most efficient manner, and contracting
      functions were not always properly performed. As a result, the Government
      has no assurance it will receive expected products and services for the $1.2
      million provided to support the Arctic Military Environmental Cooperation
      Program, and the plan to direct a contractor to subcontract with a specific
      subcontractor may have been improper direction if it had been implemented.
      The report recommended that:

               o the Principal Assistant Deputy Under Secretary of Defense
      (Environmental Security) develop and implement procedures for ensuring that
      all transfers of funds to other organizations include sufficient guidance for
                                                                            products and
      services,

              o the Principal Assistant Deputy Under Secretary of Defense
      (Environmental Security) eliminate the plan to direct the AFCEE to direct a
      contractor to subcontract with a Navy contractor,

              o AFCEE develop and implement controls to document contractor
      taskings, correspondence, and statements of work in order to increase the
      Government’s ability to obtain desired funds for services, and

             o Navy Research Laboratory develop and implement procedures to
      prevent acceptance of a fund transfer if the funds to be transferred cannot be
      used before the funds expire.


Air Force Audit Agency
      Project No. 920640011 “Contracting for Installation Restoration Program
      Requirements,” March 3, 1993. The report states that the Air Force
      installation and major command environmental offices did not evaluate the cost-

                                           24
                  Appendix B. Summary of Prior Audits and Other Reviews


effectiveness of other acquisition alternatives for IRP projects before using
service agencies and DOD service centers; prepare independent cost estimates or
complete detailed cost analysis for the service agency projects reviewed;
perform surveillance for the 42 service agency-contracted IRP projects and 11
AFCEE-managed projects reviewed; or obtain sufficient data to monitor project
costs. As a result, the Air Force paid administrative fees to the service agencies
and centers that may have been avoided. The Air Force did not determine
whether cost increases were valid or ensure that total IRP costs were
commensurate with the amount of work performed. It did not have assurance
that projects were progressing in a timely manner, or substantiate that the work
completed was commensurate with the funds paid to contractors through service
agencies. Finally it could not determine whether the project costs were
reasonable and did not use the reports as historical data to estimate costs on
future projects. The report recommended improvements to acquisition and
oversight of IRP services obtained through service agencies and DOD service
centers. Management concurred with the findings and recommendations.




                                    25
Appendix C. AFCEE Contracts and Delivery


  Contract/Delivery                                       Contract
   Order Number                      Contractor           TvDe          Amount’

F4 1624-97-D-8006                Jacobs Engineering        Letter    $131,000,000
F4 1624-94-D-8046-003 1          Jacobs Engineering        T&M*         3,917,398
F4 1624-94-D-8046-0036           Jacobs Engineering        T&M             188,584
F41624-94-D-8115-0005            Jacobs Engineering        FFP3         4,356,943
F4 1624-94-D-81 15-0025          Jacobs Engineering        CPAP        67,406,099
F41624-94-D-8115-0037            Jacobs Engineering        FFP          4,719,668
F41624-94-D-8115-0041            Jacobs Engineering        CPAF           289,216
F41624-94-D-8115-0042            Jacobs Engineering        CPAF         2,271,436
F41624-92-D-8034-0012            Jacobs Engineering        FFP          1,247,571
F41624-94-D-8053-0034            CH2M Hill                 T&M          2,353,357
F4 1624-94-D-8 138-0040          Earth Tech                T&M            240,032
F4 1624-95-D-8004-0008           Foothill Engineering      T&M            248,568

  Total                                                              $218,238,872


‘Contract and delivery order amounts are as of June 2, 1997.
*Time-and-materials.
3Firm-fixed-price.




                                          26
Appendix D. Summary of Undefinitized
Contract Actions
 Contract    Delivery
 Number       Order        UCA
                        Date                        Contract      Defin. ’     Defin.      Defin.    Adequate
 F4 1624-    Number     Awarded    Ceiline Price    Tvpe          Amount        Date       Days     Justification

94-D-8034    12-Basic    3126197   $ 1,889,OOO          FF?     (see Mod3 1)                            No
             12-Mod 1                1.247.571                                 0513Of97      65

  Subtotal                         $ 1,247,571

94-D-8 115   41-Basic    9f2Of96   $    402,325         CPAti   (see Mod 1)                             No
             41-Mod 1                   289.216                                12/04/96      75

  Subtotal                         $     289,216

94-D-8 115   42-Basic    3f26f97   $   2,025,797        CPAF (see Mods 1.3)                             No
             42-Mod 1                  1,978,034                               06113f97      79
             42-Mod 3                    293,402                               09/09/97      88

  Subtotal                         $ 2,271,436

94-D-8 115   25-Basic    5/28/96   $ 1,500,000          CPAF    (see Mod 3)    08/15/96      79        Yes
             25-Mod 1    6fO5f96    40,000,000                  (see Mod 3)    08f 15/96     71        No
             25-Mod 3               39.551.436                                 08/15/96
             25-Mod 6    4/24/97    27.977.564                                 06/30/96      67         No


  Subtotal                         $67,529,000

97-D-8006      N/A       5/09/97   $131,000,000                 $131,100,000 llf26f97       216         No


  Subtotal                         $131,100,000




‘Defin. =Definitization.
*FFP = Firm-fixed-price.
3Mod = Modification
4CPAF =Cost-plus-fixed-fee.




                                                   27
Appendix E. Summary of Delivery Orders
Awarded Using Unilateral Ordering Procedures
Contract              Delivery
Number                 Order        Date
F41624-               Number                     Amount                      Notes

94-D-8046           003 l-Basic   04122196   $      74,388   Plume containment management
                                                                plan, Chemical Spill 19
                    0031-Mod 1    05/01/96         151,360   Partnering facilitation, miscellaneous
                                                                 analyses
                    003 1-Mod 2   06/07/96         198,264   Feasibility study, Record of
                                                                 Decision (Fuel Spills 9 and 19)
                    003 l-Mod 3   08/20/96        500,000    Install monitoring wells, sampling
                                                                 analysis, site characterization
                    0031-Mod 5    05/22/97        539,716    Residential sampling and analysis,
                                                                 Mashpee and Falmouth, MA
                    003 1-Mod 6   03/06/97       2,135,063   Install monitoring wells-Ashumet
                                                                 and Johns Pond, MA
                    003 1-Mod 7   03/26/97        269,935    Monitoring wells for Deep Pond,
                                                                 sample 185 residential wells,
                                                                 and provide bottled water
                    003 1-Mod 8   03129197          48,672   Ground control, aerial surveys,
                                                                 update maps and other documents

 Total For DO 31                             $3,917,398

                    0036-Basic    02/27/97   $     188,584   Groundwater monitoring

  Total For DO 36                            $ 188,584

94-D-8053           0034-Basic    03/29/96   $     149,944   Community relations support
                    0034-Mod 1    OS/OS/96          99,747   Add title II oversight
                    0034-Mod 2    09119196          14,949   Increased scope-community involvement
                    0034-Mod 3    1l/06/96         649,954   Meeting facilitation, administrative record
                    0034-Mod 4    03128197       1,143,717   Scope increase, review of submittals
                    0034-Mod 5    03122197         295.046   Scope increase for administrative record

  Total For DO 34                            $2,353,357

94-D-8138           0040-Basic    09112196   $      23,682   Regional water supply study
                    0040-Mod 1    03/28/97          16.350   Additional work increased ceiling price

  Total For DO 40                            $      40,032

  Total UOP For MMR                          $6,499,371




                                             28
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
      Deputy Under Secretary of Defense (Environmental Security)
      Director, Defense Logistics Studies Information Exchange
      Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Manpower, Reserve Affairs, Installation and
   Environment)
Deputy Assistant Secretary of the Air Force (Environment, Safety, and Occupational Health)
Deputy Chief of Staff Installations and Logistics, Office of the Civil Engineer,
   Air Force Center for Environmental Excellence
Auditor General, Department of the Air Force
Headquarters, Air Force Materiel Command
   Human Systems Center, Environmental Contracting Division


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


                                          29
Appendix F. Report Distribution



Non-Defense Federal Organizations
Office of Management and Budget
Technical Information Center, National Security and International   Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

     Senate Committee on Appropriations
     Senate Subcommittee on Defense, Committee on Appropriations
     Senate Committee on Armed Services
     Senate Committee on Governmental Affairs
     House Committee on Appropriations
     House Subcommittee on National Security, Committee on Appropriations
     House Committee on Government Reform and Oversight
     House Subcommittee on Government Management, Information, and Technology,
        Committee on Government Reform and Oversight
     House Subcommittee on National Security, Internal Affairs, and Criminal Justice,
        Committee on Government Reform and Oversight
     House Committee on National Security




                                           30
Part III - Management   Comments
Department of the

                                DEPARTMENT OF THE AIR FORCE
                                            WASHINQTON,     DC




                                                                                         8 April 1998



    MEMORANDUM FOR DGD/IG (Director, Contract Management Directorate)

    FROM:    SAF/AQCO
             1060 Air Force Pentagon
             Washington DC 20330-1060

    SUBJECT:     DOD Inspector General Draft. Project 7CB-5028, Evaluation of Contracting
                 Practices for the Installation Restoration Program at Massachusetts Military
                 Reservation

             As requested on 27 January 1998, I hereby transmit to you the official Air Force
    management comments on your project 7CB-5028. Should you have any questions about this
    official response, please contact my action olXcer, Major Brian Magazu, at (703) 588-7032.




                                                                           N, Colonel. USAF

                                                                             ecretary(Contmcting)
                                                          Assistant Secretary (Acquisition)

    Attachment:
    SAFIAQ Management Comments dated 7 Apr 98




                                                    32
                                                 Department of the Air Force Comments




                                DoDI[C Draft AudB
  Project 7CB-5028, Evaluation of Contracting Practices for the Installation Restoration
                    Program at MassachusettsMilitary Reservation

&JJCOMMENDATION         2.a.: Recommend the Director, Air Force Center for
Environmental Excellence (AFCEE) discontinue use of undefinitized contract actions,
except choserequirements that meet the criteria defined in the Federal Acquisition
Regulation and DOD Federal Regulation Supplement

Concur. Undefinitized Contract Actions (UCAs) should only be used in those situations
that meet all regulatory criteria. The urgency for issuanceof UCAs was supported in all
cases for the MMR requirements. The primary issue supporting the urgency of these
actions was the untimely transfer of the program from the Air National Guard (ANG) to
the Air Force Center for Environmental Excellence (AFCEE) which made it extremely
difftcult IO meet the mission requirements driven by the regulatory agencies and
community sensitivities. The AFCEE was notified on 17 April 96 of the program
management transfer without sufficient lead-time to plan for the execution of these
requirements using normal acquisition procedures. An AFCEE requirement assessment
team was sent to MMR on 22 April 96. The Federal Facilities Agreement (FFA) included
enforceable milestones with fines and penalties assessedagainst the installation if the
milestone dates were not met. UCAs were issued at the onset of the program on 28 May
96 and 3 June 96 after the Air Force could identify and define specific program
requirements. The UCAs were essential in order to avoid tines and penalties that were
not relaxed despite the untimely transfer of the responsibility to AFCEE.

In the autumn of 1996 and the spring of 1997, public health issues arose in the towns of
Mashpee and Falmouth. The use of UCAs for these acquisitions was predicated on
CERCLA 42 USC 9601(23) and 40 CFR Part 300 that authorizes alternative water
supplies “when necessary for immediately reducing exposure to contaminated household
water.”

No UCAs have been issued for the MMR program since 24 April 97. All AFCEE UCAs
for the MMR program were definitized well within the DFARs requirement of 180 days.
In all cases where a cost reimbutsement arrangement was used, an award fee plan
established incentives for technical, management and cost control. The award fee pool
was reduced on delivety orders with costs incurred similar to the requirements in DFARs
215.971-3(d)(2) whereby the WeightedGuidelines method reduces profit/fee on other
than award fee contracts. Of the 83 contract actions required to support the MMR
program, AFCEE has used UCAs on only 6 of those actions (including the letter
contract).

AFMUPK has reviewed the UCAs and also finds little reason to question HSC/PK’s
contracting strategy.




                                            33
Department of the Air Force Comments




                  Each of the UCAs discussedin the report and the issuessurrounding them arc
          briefly described below:

                  ( 1) UCA F4 1624-94-D-8 1150025: On 22 May 96 at a Senior Management Board
          (public) meeting. a commitment was made to the community at large by a senior SAF
          rcprcscntativc. to install a wcllhcad trcatmcnt system on a town well with system start up
          by the 4e’ of July. Issuanec of the UCA was approved 24 May 96 and award was made 28
          May 96. The dcfinitization of this UCA was completed on I5 Aug 96 (79 days)
          simultaneously with the definitixation of F41624-94-D-8115-002501.

                  (2) UCA F4 1624-94-D-81 15-002501: Requirement identification began when the
          AFCEE assessmentteam and Jacobs team (under contract no. F41624-94-D-8046-003 I)
          arrived at the MMR on 22 April 96 immediately after the program transfer from the ANG
          to AFCEE. Requirements included development and implementation of a comprchcnsive
          plan for the simultaneous containment of seven existing groundwater plumes (commonly
          called plume response) emanating from the MMR. From 8 to 23 May 96, the team
          worked to further refine the plume responserequirements. The timing of the rcecipt of a
          detailed set of plume responserequirements could not be predicted at the time the
          wcllhcad treatment rcquircment was identified. This situation, coupled with the
          extremely aggressive schedule for installation of the well head treatment system
          identified on 22 May 96 determined the need to separate the well head treatment
          rcquircmcnt from tbc plume responserequirement All parties in coordination on the
          basic delivery order UCA were aware of this additional requirement. but the consensus
          was to have each UCA standalone. Additionally, request for UCA approval for this
          modification did address the basic DO award in its request for issuance from the approval
          authority, HSUCC.

          Efforts to avoid issuance of the UCA on plume responsewas made impossible by the
          untimely transfer of the program to AFCEE and FFA schedules/milestonesaltcady
          established with regulators. Issuance of this UCA was approved 3 Jun 96 and award was
          made on 7 Jun 96. The definitization was completed on 15 Aug 96 (68 days)
          simultaneously with the basic Delivery Order UCA definitization.

                  (3) UCA F41624-94-D-8 I15-002506: A Request For Proposal was issued 29 Oet
          96 for the FY97 plume responsercquinments; however, the pmposal rcccivcd far
          exceeded the available budget. Original assumptionsregarding the project estimate wcrc
          based on previous AN0 site data and reports on the extent of contamination. These wcrc
          used to formulate the original FY97 budget. By Dee 96, further Remedial Investigations
          (RJs) by AFCEE determined that original pcrfotmance tcquircmcnts wcrc based on
          significantly outdated information resulting in scvctcly underestimated I?‘97 cost
          estimates. The material aspectsof these changeswcrc of such a magnitude that it was
          determined by the CO to accomplish a rcstructurc and rcbasclining of the FY96 projects
          under F4 1624-94-D-8 115-002506.These changesdepleted most of the available FY97
          funds leaving limited funds for work intended to be performed on the new contmet. NO
          budget could have been accurately established for these unknown cireumstanecs. As a



                                                                                                   2




                                                      34
                                                Department of the Air Force Comments




result of substantial changes in original assumptions, restructuring of the plume response
requirements was also needed. From early Jan until mid-Mar 97, the AFCEE team
worked with Jacobs and federal and state regulators to revalidate the requirements and
scope them within the available FY97 budget while complying with the regulatory
deadlines. Revised requirements within available FY97 budgets were validated 1 I Mar
97. Since the requirements were not validated until this time, no other contracting
options were available except to issue a UCA to continue the program without work
stoppages. Work stoppages would result in cost and schedule impacts, including tines
and penalties, upon the MMR. Mission requirements could not have been met without
the use of UCA procedures. Additionally, it would have cost I’... a minimum $lM for
demobilization and remobilization” as stated in the UCA request if normal contracting
proceduns were followed. Issuance of the UCA was approved on 14 April 97 and award
was made on 24 April 97. The definitization was completed on 30 Jun 97 (67 days).

         (4) F41624-94-D-8115-0041    and 0042, F41624-94-D-8034-0012:    Private well
contamination required residential water connections to a public water supply in the
towns of Mashpee and Falmouth. This was a serious public health concern related to the
ingestion (drinking) and inhalation (showering) of contaminated water that necessitated
immediate action. Delivery order CO12 called for residential biweekly sampling of wells
and provided bottled water to residents.

      (5) F41624-97-D-8006:      Letter contract to Jacobs is discussed under
ncommendation 2.~. below.

In summary,   these UCAs were all driven by a “no notice” transfer of a huge
Installation Restoration Program (H&P)to AFCEE, HSC relied, perhaps mistakenly,
that budget estimates inherited from the prior agency accurately depicted the funds
needed for MMR actions, and regulator and community interest that did not wane
when program responsibility was shifted to AFCEE. Therefore, we concur with this
recommendation since ail the UCAs for the MMR program were issued using
proper FAR and DFARs procedures and criteria.

RECOMMENDATION 2.b.: Recommend the Director, AFCEE discontinue the use of
the unilateral ordering procedure (UOP) for time-and-materials (T&M) contracts.

Concur with reservations: After reviewing this strategy, AFMCYPK found that HSC/PK
complied with current policy and pmccdure. However. the MAJCOM questions the
soundness of these UOP procedures from a business perspective.

There are elements of risk associated with any T&M contract action. The use of UOPs
versus negotiating with the contractor under a T&M pricing arrangement does not
increase this risk. The UOP is a locally developed contracting tool available as an
alternative to negotiating procedures. Circumstances at the time the requirement is ready
for delivery order issuance dictate appropriate use of this unique tool. Specifically. the
application is limited to rcquirementa that the government can independently determine




                                               35
               Department of the Air Force Comments




Final Report
 Reference




                         the estimated level of effort based on other similar efforts and no real value would be
                        realized by the additional time taken for traditional negotiations with the contractor. The
                        procedure interprets the vision of the Federal Acquisition Regulations’ (FAR) guiding
                        principles ” to deliver on a timtlv basis the best value product or service to the
                        customer...‘* (FAR 1.102).” It is nsponsive to the customers’ needs by expediting the
                        issuance of delivery orders with the benefit of more effective use of time by focusing on
                        the more critical post award contract surveillance under T&M contracts. The independent
                        government estimate (IGE) received from the AFCEE technical rcprcsentative includes as
                        much cost and pricing detail as is required from the contractor when requesting a
                        proposal. The DOD IG nport is critical of delivery order 0031 because it was issued
                        using unilateral ordering procedures that assumed “too much government risk.” The
                        modifications to delivery order 003 I became necessary ac the program progressed for
                        additional effort, i.e. new work. The CO determined that segregating that effort into a
                        new delivery order was not advisable lo ensure effective administration of all “study
                        type” actions under the MMR program and avoid proposal preparation charges and
                        duplication of monthly status and cost reporting. The T&M determination is in each,file
                        to support the use of the T&M pricing arrangement in accordance with FAR 16.601.
                        Additionally, a CO determination and findings is filed with each modification to support
                        use of UOP for new work, under the authority of FAR 52.2 16- 18“Ordering.”

                        AFCEE and HSC/PKV followed all currently existing policies and proccduns and used
                        the unilateral ordering procedures properly on T&M contracts. Our files fully document
                        and support the use of this unique tool. In the event AFMC/PK or HSUPK modify
                        applicable policies and procedures. AFCEE and HSUFKV will fully comply with those
                        changes.

                        Based on the IG findings and AFMWK recommendations, HSUPK will rescind
                        UOP and investigate alternative procedure that is responsive to mission needs and
                        consistent with sound business processes.

Deleted                 RECOMMENDATION 2x.: Recommend the Director, AFCEE terminate or request
                        reapproval of the undcfinitized letter contract awarded to Jacobs Engineering Group for
                        $131 million.

                        Concur with IG Finding but nonconcur with their recommendation. The cuntract is being
                        substantially used at this time and will continue to receive substantial use in the future.

                        The request for contractual coverage began on 13 September 96 with the drafting of a
                        Justification and Approval (J&A) in accordance with FAR 6.302-2, “unusual and
                        compelling urgency,” for an increase of S75M to the ceiling of two existing nationwide
                        IDIQ contracts for environmental nmediation. ‘Ibe need for a letter contract was not part
                        of this original request. Nine J&A versions and five months later, after numerous
                        changes by several organizations in the approval chain, SAWAQ approved the issuance of
                        a letter contract under the authority of FAR 6.302-1, “only one responsible source.”
                        Version 9, the final revisions from AF/ILE, included the authority of FAR 6.302-I as a



                                                                                                                  4




                                                                        36
                                                 Department of the Air Force Comments




stand alone letter contract for $131. IM but changed the rationale for letter conttact from
“required” to “necessary.” The reference to “letter contract” inadvertently remained in
the final version of the J&A approved by SAFIAQ on 7 Feb 97. By the time the J&A was
approved, the CO intended, based on current circumstances, to issue a definitive contract
for the reasons detailed in the following paragraph. The CO was later advised, based on
the language of the approved J&A, the initial award must be a letter contract. The letter
contract was awarded on 9 May 97. While AFCEE could have amended the J&A to omit
the reference to the ‘USCofa fetasr conrrucr, ‘we do not foresee the present benefit in
changing a J&A associated with a dcfinitixed contract.

Simultaneous with the J&A processing, in Ott 96, the FY97 plume response
requirements were being scoped with the intention of using the contracting vehicle
addressed in the J&A. Background: the environmental threats at the MMR are based on
one large plume of subsoil contaminants, generated and dumped into the soil many years
ago, but threatening the fututc of local ground water and the immense.expanses of wet
lands in the region. Original assumptions regarding the remediation project estimate were
based on previous ANG site data and reports on the extent of contamination. By Dee 96,
further Remedial Investigations (Rls) by AFCEE determined that original performance
requirements and cost estimates would requirement substantial revisions. The material
aspects of these changes were of such a magnitude that it was determined to accomplish a
restructure and rebaselining of the FY96 projects under F41624-94-D-8115-002506.
These changes depleted most of the available FY97 funds leaving limited funds for work
intended to be performed on the new contract. A revalidation of the requirements to be
performed under the new contract was set forth in a Memo for Record (MFR) dated 29
Aug 97, coordinated with AFCEEfER and HSUPKV.           This MFR revalidated the need for
the requirements of the basic contract and confirmed the conditions described in the J&A
were. still in effect.

The genesis of this letter contract IO Jacobs Engineering, as outlined above, was certainly
complicated but its positive outcomes have potentially saved the MMR program. At the
time of this letter contract AFCEE did not have any world-wide remediation action
contract with sufficient capacity that could handle the scope of problems at MMR.
Jacobs Engineering on the other hand, offered a full range of capabilities in plume capture
planing, plume containment, well drilling and unique plume modeling. Each one of these
critical competencies was brought to bare and ended the ‘study’ phase and began actual
clean-up.

Since the award of the Jacobs Engineering sole source contract, AFCEE has built an
arsenal of Remediation Action (RA) prime contracts that would be suitable to accomplish
severable work need to complete this project. However, before any decision could be
undertaken to terminate this contract we must consider: the need for continuity in the
performance of the nonseverable work required by the Jacobs Engineering contract and
the current aggressive Federal Facilities Act RA schedule. Program Managers monitoring
this project from all agencies and levels of government insist--AFCEE must continue an




                                                                                         5




                                               37
             Department   of the Air Force Comments




                    aggressive remediation pmgram while apportioning severable work to other prime RA
                    contractors.

                    Although we cannot precisely calculate the potential cost associated with termination of
                    the Jacobs Contract, it is AFCEE’s estimate that termination costs, fines, and penalties
                    could be upwards of b15M. However, the damage to the credibility of the USAF in its
                    dealings with the people of Massachusetts, state and federal regulators, and government
                    officials are incalculable. Therefort, it would not be in the best interest of the USAF or
                    the MMR remediation effort to leenninatethe Jacobs Engineering Contract. AFCEE’s
                    immediate plans with regard to this contract are as follows: In FY98. they estimate the
                    award of actions valued approximately at $47 million. Currently. I I actions have bten
                    awarded valued at $27.1 million. To ensure.the continued proper use of this contract.
                    AFCEE will issue a policy letterCO MMR contracting officers reminding them that based
                    on the J&A, all future nonseverable work should continue to be allocated to Jacobs
                    Engineering. Work determined not to comply with the terms of the J&A will be acquired
                    through the competitively awarded AFCEE remediation contracts now in place.

                    We also disagree with the recommendation to modiiy the Jacobs Engineering J&A
                    that was approved last year by SAF/AQ. We agree the contract@ activity should
                    have amended the J&A to omit the reference to use a letter wntract but, we do not
                    foresee the benefit in changing it now. The J&A went through a rigorous review
                    before lt was approved and the exception from competition authority was changed
                    from %musud and compelling’ to ‘only one responsible source+’ The justification
                    focuses on the need to establish a long term relationship with a sole source
                    contractor to ensure the continuity of nonseverable cleanup operations. This
                    justification is still valid today and continues to be the ba& for work done under
                    this contract. Therefore, it would not be appropriate to terminate the filly
                    definitized Jawbs Engineering contract since it is being substantially used to
                    support the immense, politically charged environmental clean-up operation at the
                    MMR.

                    Again, we believe AFCEE complied with all appropriate regulatory and policy
                    g&lance in the issuance of thii contract. However, we do not agree to
                    recommendation to termination the contract or revalidate Its’ J&A. Neither of these
                    actions are necessaq nor are they in the best interest of the MMR program. This
                    recommendation b wnsidered closed

                    &ECOMMENDATtON fd.: Recommendthat the Director, AFCEE require that the
Renumbered          contracting officer validate contractor charges and certify invoices for payment within 30
to 2.c.             days of receipt Initiate actions to resolve all charges questioned by the contracting
                    officer representative and the support contractors within 30 days of receipt. Initiate
                    actions to recover all costs determined unallowable.

                    Concur. Policies and procedures are cumntly in effect within AFCEE to implement this
                    recommendation. The contracting officer delegates review and approval of invoices to



                                                                                                                 6




                                                                 38
                                                   Department of the Air Force Comments




                                                                                                  Final Report
                                                                                                   Reference




the contracting officer representative (COR) in accordance with DFARs 201.602-2. All
invoices are reviewed and approved within 30 days in accordance with AFCEE policy.
The only MMR invoices currently unresolved are from F41624-94D-6I15-0025.         These
invoices am submitted as public vouchers. Under this delivery order, all vouchers were
reviewed and approved through Nov 96 when the COR was massigmd. In Dee 96, a new
COR was hired at MMR.       The new COR’s review determined a need for more detailed
cost backup in order to determine reasonablenessof the charges. Based on this input, the
CO requested backup for all vouchers as later set forth in modification 06 of the delivery
order. After receipt of the detailed backup and CORK0 review, numerous deficiencies
were identified. The deficiencies were categorized and on 14 April 97 the CO requested
DCAA perform a cost incurred audit of F4 1624-94-D-E I 15-0025 to determine if there
were any unallowable costs. The DCAA audit is still ongoing with a focus on travel,
relocation, labor, and overtime pmmiums. Due to the extended time it has taken to
resolve the audit issues, the CO-has requested and received interim findings for labor,
travel and relocation. These findings identified questioned amounts totaling in excess of
$600,000. Closure on ah audit issues are to he submitted to the CO no later than 3 1 Mar
98. Notwithstanding the open audit issues, the COR continued to review vouchers
submitted by Jacobs and has reviewed all vouchers through the most recent billing cycle.
Hundreds of comments (53 pages) from the CORK0 remain unresolved but are being
negotiated with Jacobs. The AFCEE invoicing process mquires the COR to sign the file
copies of invoices after all issues are resolved or offset on a future invoice, including
outstanding audit issues.

The CO has validated that this delegated function is being accomplished properly
and will address all recommendations identified in this report.

ItECOMMENDATlON 3.: Recommend that the Commander, Human Systems Center.
                                  . .                                                            Revised
p                                       [us ogreed upon with the DOD IG] coordinate with
the Air Force Center for Environmental Excellence to establish a management control
plan that includes target dates for reviews and assessmentsof environmental contract
administration.

Concur. Policies and procedures are currently in effect within the Human Systems Center
Contracting Directorate. in October 97, the HSC Contracting Handbook was formally
published which documents the management control proceduns and oversight activities
that are applicable to all Center Contracting divisions’ activities. under the FAR and it
supplements. Each separate.contracting division participates in periodic reviews of these
control procedures and oversight to maintain currency and address continuous
improvements. Periodic self-assessments within the various contracting divisions am
done in a variety of ways consistent with the needs of each division and their customers,
In all cases, the self-assessments help to identify the need for additional training and
improve processes. Training and assistance are continuously assessedfor each buying
division and are provided in a variety of forums. Some these include special focus
training, cross talk initiatives, early involvement sessionsof contracting staff components




                                                                                             7




                                             39
Department   of the Air Force Comments




       with buying divisions per~onncl on all new acquisitions of $5 million or more and direct
       staff participation in buying division staff self-assessmentactivities.

       In November 1997, a multidivisional team of contracting division specialists from within
       PK conducted a post award rtvicw of PKV contracting actions in FY97. The significant
       findings/trends have been pnscnted in three training seminars. These post award reviews
       will be accomplished on a semiannual basis to help identify the need for additional
       training and opportunities for improved processes and procedures.

       Corrective   action will be taken to correct findings and address   this
       recommendation.


       pECOMMENDATION            4.:Recommend that the Director,   AFCEE include
       environmental contracting in an assessableunit in the Center’s Management Control Plan
       and conduct periodic self-assessments to help ensure that effective controls are in place
       for environmental contract administration.

       Concur. The establishment of HSUPKV (environmental contracting) as an
       assessable unit with periodic self-assessments will be accomplished to address this
       recommendation.




                                                                                                   8
Audit Team Members

This report was prepared by the Contract Management Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

Paul J. Granetto
William C. Gallagher
Michael Perkins
Marcia L. Kilby
Birta M. Johnson
Peter J. Larson
Robert McGriff
Vanessa S. Adams
Marc E. Avers
Marie Beming
John G. LaBelle
Donald C. Shaw
Ana M. Myrie
